              STATE COMPUTER SECURITY





OFFICE OF 
        INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS

                                     DECEMER 1988
                         OFFICE OF INSPECTOR GENERAL

The mission of the Ofce of Insper Gener (010) is to promote the effciency, effective­
ness and integrty ofprogr   in the Unite States Deparent of Health and Human Services
(HS). It dos this by developing method to detet and prvent frud, waste and abuse.
Crate by statute in 1976, the Inspto Genera keeps both the Secta and the Congrss
fuly and curntly inormed about    prgr   or maagement prblems and reommends cor­
retive action. The 010   peor    its mision by conductig audits, investigations and inspec­
tions with   apprxily    1.200 sta strtegicaly locate arund the countr.


                    OFFCE OF ANALYSIS AND INSPECll0NS
Th    re
major offces
            is pruced by the Ofce of Analysis and Insptions (OAl, one of the the
               with the 010. The other two ar the Ofce of Audit and the Office of Inves­
tigations. OAI conducts insptions whih ar tyicaly short-te studies designed to deter­
mie   prgr     effecveness, effciency and vuncrilty to frd and abuse.




                                     THIS REPORT
The re is entied "Sta Coute Secmity.th" It was conduct
compute relat frud which found that one-       frud involvig Ooverent
                                                                     as follow-up to a study of
                                                                                         funds
wer cott
                                          of the
              on Sta and loc compute systms. Th sty           identisought to         State ef­
for to               compute securty on
         pla and implement                            steg fedy-
                                                   systems
                                                             admini                funded
prgr.
Th sty was prpar by the Regional
tions, New Yor Region.
                                        In           Gener Ofce of Anysis and Insp­
                          Papatg on the prjet we the followig:

New York
Jack Molnar (Pjet   Le)                     Al Stubbs

John Trazyk                                Lena Czjka
                                            Aprl      Wi11am

Dallas
Raph Tunell

     STATE COMPUTER SECURITY





                 Richard P. Kusrow
                 INSPECTOR GENERAL




OAI- 02-800630                       1EC& ';88
                                                                                         EXECUTIVE SUMMARY

                       BACKGROUND

                       The PUlse of 

                                                    this inspection was

                       securty On systems                                                      to identify State effons to

                                                        admnisterig f

                   reuirnts ar                       having On the Statesderay funde
                                                                                                                                                       plan
                                                                                                                                                                 and implement comPUter
                   th of cOIDuter­
                                                       relate
                                                                                                    efon. It 

                                                                                                                            Was
                                                                                                                                  Pro=""and to assess the effect Federal
                  ci     On Integrty and                               involvig
                                                                    &ads                                                           intiate out of an

                                                                                                                                                                        aWarness that
                                                            Efciency, Wer COlItt                             Fed
                                                                                                                              fuds, as
                                                                                                                                                identied by                                       One-
                 Ther we two phases of activity in                                                                    On Stae            cOIDUte syste.
                                                                                                                                                                              the Prdent s COun-
                 compute securty 

                                                                                               ths inpection. Initiy,
                 to identi relevantWas reviwed and metigs
                                    reuil1nts an           were conducte with guidace to States On
                                                                                                                                                    Fed
                stuy
                      shoul
                             focs On
                                       the Aid to Fames                       apprprite       IInitog                                                                                Fed
               Stap Progrs.                                  prtices.
                                                        With DependntIt Chin
                                                                        Was
                                                                            then detered       stas
                                                                                         that the
                                                                             , Mecaid an FOO
               The send pha
                                                  include
               Proessig (ADP)                                      viits
                                                                                                Staes to dicuss compute securty with automatic
               sury of Sta                        an prgr                    sta
                                                                                   to   12



                                                                      Wer reponsible not an audit of the
                                                                                             This
                                               ofcial who                                              Was
               sor a varety of securty 
                                                                                                                                                          data
             sha data cente and                                 envimnnts. The            The
                                                                        selection crtea inclUd State
                                                                                                              fo the systems.
                                                                                                                                                          Sta syste,

                                                                                                                                                                                     but    rather a
                                                     use of enhance fudig.  At
                                                                                                       Wer selected to

                                                                                                                                                                                                   as­
             the State and 

                                        local sites.
                                                                                eah State, dicussionsprogr      siz,                                                                        use of
                                                                                                                                                                          we held at both
           FINDINGS

          Federa SecUr Guidae Has
                                                                           limid 11I/1t On
          Sta comUte seurty effon                                                                                     Stas
          mon    Fed gndace and                                    vared signficantly
      P1 ca                       for     such      Vartion.
                                                                monitog, and                                        States
                                                                                                                   amg th
                                                                                                    mied leve of intest  in seurty                      visite
                                                                                                                                                                        The
                                                                                                                                                                              of com­
                                                                                                                                                                         "P
                                                                                                                                                                               lac
     Agrultu                                                               Audts
                         (USDA)                                                              by the
     the dee1OPl1nt of State 

                                                 and State legilative                                                             Gene for th U                                        to be the
                                                                                             prsor appe to be
    securty progrs.                                    SCty
                                                                       pr=..                   States without suchth
                                                                                                                                                                   S.    DeParent of
                                                                                                                                                                 facrs inuencing
                                                                                                                                           inuence had

  I'
   Examles




 we able to nOt
                    of th lite imact
                that thy Wer unwar of of
                                      fig
                                               seurty guda ar
                                         any Fed coUte
                                                                      Fed
                                                                                                                                         that 3 of the
                                                                                                                                                                         less organze


 the      Fed                    or renundtions reultig seurty                                                                                                     12 States 

                                                                                                                                                                                     visite
Revenue Servce 

reguations. Seven 

                    reuirments
                          (IS)
                                we too gener to be of any value.
                               gudace
                                                           &o
                                                                  in the           Incom an E.g1bilty Th
                                                                                                                                   Fe      Slada,




                                                                                                                                           exception
                                                                                                                                                    IDnitog. SOI1
                                                                                                                                                                  an only 4 States
                                                                                                                                                                                           said
                                                                                                                  Vertion SyStm th Inteal
                                        State tok                                                                                                                 Was
burnso,                                                         strng exception to
                           as   weU
                                          as     inapPmri                   to the 

                                                                                                         thse reuimets beuse     (IVS)
                                                                                        IEVS
                                                                                                       use of IRS data                                             they ar           too
                                                                                              vir-
When asked what they believed would be an appropriate   They want
                                              this ara.Federa       comrehensive
                                                              role, State           regula-
                                                                          agencies were
tually unanus in  thei desir for assistace in
                             with supportng guida
                                                      . They  ar split about the level of
tions, common to all
                       progrs
                          field visitS, the others preferred the submission of vulnerabilty as-
monitoring; hal opted for
sessmentS. The Assistant
                          Secrta for Management and Budgetsecuty   (ASMB) issued proposed
regutio    that include a common    stada     for Sta  computer          on fedraly funded

                                      submission of vulnerabilty assessments.
systems and monitoring though the
                            Controls
 Stats Have Good Access 

                                                identication numbers,
                                                                          termnal identifiers and
 Access contrls in
                    the fonn of passwords and                           the State securty
                                                    ar the strngths of
 audit trls of persons  who  had  used the  system                         ' abilty to create or
 progrs. Vutaly al        States used access   controls to limit employees
                                                                use. However, despite the apparent-
 mod fies, and to keep     a log of trsactions and system                   the States, a potential
                       implemente     acss contrl effor note among
 ly well designed and
  vuerabilty to the protectio of personal data was noted in a number of States.
                                                                      Whe this pratice does not
  Firt, may States issue generic passwords for query        function.
                                                     prit out client reords, it
                                                                                 does crate oppor­
                 unauthorized   persons  to  view or              may  Sta    ar  intrucing, or in­
  dictly permt
  tuty for acces which is not    eaily lDmto          Secondy,

  crasing the use of, personal computers
                          crated  for sta offces as opposed to
                                                                progr,
                                          which have access to the client data bases.
                                                                          crates  the Such
                                                                                      oppor­
  access, which is usualy
                               quantities of data
  tUity for downoading large

   Stats Need to Strengthen Security in Specific Areas
                                            documente by the absence of some commonly ac­
   Weakess in State computer securty is
   cepted pratices:

                                                                     computer securty plan fully
         Tb-quarrs       of the States visited do not have a spifc
          implemente
                                                 monitore computer       seurty at remote sites.
          Only the States have plans for, and
                                                             rik analyses to evaluate 

                                                                                       their security.
                               vulnerabilty assessments or
          Only twO States do
                                                    backgrund checks.
           Only four States do personnel security

           Contigency plans generay exist
                                               on paper, but only   th   plas have been   tested.
RECOMMENDATIONS

Durg the course of this inspection, the Office of Inspector General tWice reommended chan­
ges to ASMB' s Notice of Prposed Rule Makng (NPRM), " Automatic Data Processing Equip­
                                                                " The recommendations

ment and Services; Conditions for Federa Financial Parcipation.

included:

     Modying the NPRM to specifically require that the States have a single security plan.

      Addg a requirment for review of data securty in addition to physical security
      reviews.

      Establishing a clearly defied relationship between generic securty requirements and
      progr-specific reuirments.

The recommendations listed above were incorprated into the NPRM. We recommend that
the Deparnt issue the common computer securty       stada   in fmal form with a risk
analysis requiment. Addtionaly, monitorig or   review  proedures  for these regulations
should be established.
                                 .... ....... ... .... ...................................   ................................................
                       .......................... ....... .................... ......................................... ..............




                                                    TABLE OF CONTENTS



EXECUTIVE SUMMARY

INTRODUCTION... .................... ....... .................... ........... 

                                                                              .......................................... 1

    Pu rpose
      Backg ro und 

                                                    ........................................ (I........................ ..................

      Methodo logy.......... 





FINDI NGS
                 ................................................................................................................. 4

RECOMMENDATIONS ..........................................
                                                                                       ................................................... 9

AG ENCY COMMENTS................................................ ..............................................

                                                                                                                                            10
                                      INTRODUCTION


PURPOSE

The purose of this inspection was to identify State effons to plan and implement computer
securty on systems admnisterig federaly funded progra ns, and to assess the effect Federa
requirments ar    having on the States '   effons.

BACKGROUND

While the securty of Federa computer systems has long been monitored by both Congrss
and the Executive Brach, it is only recently that attention has begu to focus on State com­
puter systems use in the adstration of fedraly fuded program. Beyond the fact that
signcant Fedral funds are used to develop and adister these systems and ar expended
thugh these systems, a number of recent events have rased questions as to the qualty of
State computer securty.

In 1985, the Prsident s Council on Integrty and Efficiency (PCIE) reuested the Inspector
Genera (10) for the Deparent of Health and Huma Servces        (H)   conduct a study of
computer-related frud in governent agencies. That inspection include interviews with 46
perptrtors to lear about their individual cres and the system vulerabilties that existed
which alowed these cres to occur. Al of the perpetrtors held positions with some degree
of involvement in the agency s computer system. A number of the State and local agency per­
petrtors charcterize their agency s existig computer seurty and internal controls as weak
and, therefore, vuerable to the tye of      cre
                                              they commtted. The study also found that 43
percent of these State and local employees had previous cral reor when hired by their
agency.

Congrss has also exprsse concern that computer securty systems have inadequate contrls
which leave them vulerable to improper use and inadeuate proteCtion of privacy. Several
legislative intiatives have been introduced whichadss   the problems involving the securty
of computer systems in federay funde        progr.The Office of Technology Assessment,
the research ar of Congrss, issued a report which wared that the opportities for un-
authorize access to and use of governent computer data have incrased and also identified
the computer matching perfored by \State agencies as an ara where protection of data may
be insufcient.



The U. S. Deparent of Agrcultu s (USDA) 10 found computer system vunerabilities at
State and local agencies adsterig Foo and Nutrtion Service (FS) progrs. Its 1984
audit of 13 non-Fedra computer systems adisterg Foo Stap progrs found weak­
nesses in al of them, leadg the 10 to consider these systems highly vulerable. It also
report that FNS had not issued any securty guidelines for non-Federa systems and needed
to improve its monitorig of these systems.
Another concern is the relative lack of Federa guidace for State computer securty as op­
posed to Federa systems. Federal standas for Federal systems, which run thousands of
pages and include NSDD- 145, Office of Management and Budget (OMB) Cirulars A- 130
and Federal Inormtion Processing Standa (FIS) publications, requi each agency to
have its own computer securty program. These Federa computer securty progrs ar
monitored by individual agencies and OMB though the A- 123 process, by Inspectors General
internal reviews, as well as by the General Accounting Office.

By comparson , Federa   stada     for State systems ar a patch-work of uncoordnated regula­
tions. Each Federal agency, in overseeing the State adistration of its programs, issues
guidelies; only some of them include  stada      on computer securty. The agency may also
issue dierig stadads dependig upon whether or not the State receives enhanced (Le. , 75
or 90 percent) Federa fundig for its ADP system. Those Fedra      stada  which do exist
var in degr and tyes of securty reuired, and may someties duplicate or confict with
each other or with State requirments. Ths may present compliance diffculties for those
States which process more than one Federa program at the same computer center.

Among the varous program, Medicaid (title    XI   of the Social Securty Act) has had regula­
tions in place for almost 15 year providig for enhanced Federal Financial Parcipation
(FF) for the Medcaid Maagement Informtion System (MMS) for States reuestig it.
However, an amendment that reuired the development of securty stada for MMS, not
enacted unti 1980, alows States to conduct internal reviews using stada developed by the
Deparent. A yearly review by the Health Car Financing Admnistrtion     (HCFA) of the
States ' systems was requird unti 1985 when the Consolidated Omnbus Reconciiation Act
(COBRA) revise the frquency of reviews to once every 3 years. The      stada   issued to the
States ar genera in natu and the specifc development of State secmity criteria is left to the
States.

With regar to the Aid to Famlies with Dependat Chidrn       Prgr  (AFC), a general state­
ment reuirg safeguar for inormtion existe for may years, but no discussion of State
computer securty existed unti Public Law 96-265 was enacted, with the regulations effective
in 1981. Public Law 96-265 alowed States to reuest enhanced fundig for the development
of a computeri informtion system which met       cer stada,     includig secmity against
unauthor access to or use of data The law also
system s compliance with the stada.
                                                  reui   the Deparent to monitor the


Within USDA, the FNS, which monitors the Foo Stap progr, issued an           ADP Security
Guide which prvides States with genera automatic data processing (ADP) security
gudelies for developing their own seurty progrs. These       stada,      which were
develope as a result of the 1984 audit noted above, apply to States with or without enhanced
fundig.

A reassessment of computer system securty   progr     of States is now occurg due to the
passage of Public Law 98- 369, the Deficit Reduction Act of 1985 (DEFRA), which crated
the Income and Eligibilty Verification System (IEVS). Ths law
                                                                  reuirs AFC, Medicaid,
                                             ' " ...




Foo Staps and other program to receive income information from the Internal Revenue
Service (IS) and Social Securty Admnistration (SSA), and to use it in determning
applicants ' eligibilty for progr benefits. All progrs were requird to sta using IEVS by
September 30, 1986. Both the IRS and SSA have personal data safeguarding guidelines
which al agencies obtaiing inormation from them must           follow. The IRS          Tax Informtion

Security Guidelines 
                         areas of computer securty and record
                        goes into specifc deta on
safekeeping. It also requirs                 to the Federal fundig agency on the status of
                                a periodc report
safeguarg proedures. The SSA issued securty instrctions in its Progr Operations
Manual which apply to States that obtan informtion from the Benefit and Earings Data Ex­
change (BENDEX) or Supplementa Data Exchange (SDX) systems. However, SSA is cur­
rently in the proess of changig these requirments by adoptig the IRS requirements.

To ad to the concern at the Federa level, States ' assessments of their own securty progrms
offer litte reassurance. The National Association for State Information Systems (NASIS)
stated in its 1984-1985 report that States  data securty appear to be far from an ac­
complished fact and that progrss in establishig physical securty at States ' data centers does
not appear to have been made. " Of the States reportng as par of the NASIS surey, half
voluntere that their data centers do not have a seurty plan.
METHODOLOGY

1bere were two phass of activity in ths inspection. Intialy, Federa gudace to States on
computer securty was reviewed and meetings were conducted with                   appropriate Federal staffs
to identi relevant requirments and monitorig           pratices. Based upon          these activities, it was
detemred that the study should focus on the AFC, Medcaid and Foo Stap progrms.
The second phas was to visit 12 States to discuss computer securty with ADP and program
sta. The States were selected to assur a varety of securty envirnments. The selection
crte   include progr size, use of shar data centers and use of enhanced funding. At
each Sta, discussions were held at both the State and local sites. The States visited were:

         Caorna                    Florida                  Georgia
         Ilois                     Marland                  Michigan
         New Jersey                New York                 Pennsylvania
         Texas                     Vermont                  Washington
                                         FINDINGS

Stat Computer Systems and     Operatng Environments Var

Unlike many Federal agencies or the Medicar caners and intennediares, not all State human
service agencies own and operate their own computer systems. Six of the 12 States visited
operated though a centralzed ADP agency. These agencies, which may be peer agencies to
the human service agencies or components within a larger admnistrative servces agency,
house and operate the State computer systems. Among the States we visited, the centralzed
ADP agencies served frm 32 to 61 other agencies besides the human service agency. While
this situation is not a problem in and of itself, it has implications for the implementation of
progr specifc regulations and guidelines that relate to computer systems such as computer
securty.

Firt, these  centraled ADP agencies have their own operatig rules and regulations as well as
adtrtive         systems that addrss computer securty. Often these rules and systems ar the
result of State law or policy. Second, because as many as 10 dierent federay funded
progrs are served by some of the centtd ADP agencies, the ADP agencies are potential­
ly obligated to be in compliance with al of the varous Federa agency requirements. The lack
of Fedra recognition of this workig envirnment has crated a problem for some States.
Specifcally, the IRS securty reuirments under IEVS reuir the progr officials to per­
sonaly supervse the processing of the IRS tapes. However, they do not have access to the
centr data center. Under nonnal operatig proedurs, progr officials would simply send
a tape to the data center for pressing. In practice, States appear to be ignoring the IRS re­
quiment because it is not prctical.
On the other hand, tWo of the centrzed ADP agencies reponed that they were unawar of
any Fedra computer securty requiments that might apply. Th occur for two reasons:
f1It, because of uneven and someties weak Fedra monitorig of progr-specific com­
puter securty reuirments; second, because Federa requirments ar, by design, communi­
cated toprgr      sta in the agency adisterig the human sece progr. Therefore, the
progr agency becomes an intennediar with the centr ADP agency and must also attempt
to encourge or assur its compliance.

Federal Secur Guidance Has Limited Impact On States

Whle al States were awar of the nee for computer securty and had securty progrs
place, computer securty effort vared signifcantly between the States visited. This is due to
the lack of common Federa guidace and monitorig, and mied levels of interest among the
States in computer seurty.

For example, the Famy Suppon Admstrtion (FSA) has securty           stada that must be ad­
drssed in plans for, and met in the certfication of, Famy Assistace Management Infonna­
tion Systems (FAMS) which receive enhanced fundig. However, since 32 States are in the
planning or development stage and 10 States are not seeking such a system, most States
curntly not covered by these requirments. Securty requirments for non-enhanced              systems
are   vialy non-existent in that they only speak to       protectig personal   data. The FSA per­
forms some    ad hoc 
   reviews of securty by   fundig ADP audits conducted by outside consult­
ants where vulerabilties are suspected.

The HCFA has MMIS securty stadads, and these ar regularly reviewed. However, since
most MMs ar contrcted to private agencies, the reviews rarly include the State systems.
Also the gudace to regional offces, which conduct these reviews, focuses primarly on
clai    proessing and      miy     on eligibilty systems. Addtionally, in the most recent
reviews for 8 of 12 States in this study, computer securty stadads were documented
 deemed met, " meang they were not actualy reviewed because they had been met in an ear­
lier review.

The USDA/S issued a comprhensive computer securty guide to State agencies in
Februar 1986 as a follow-up to the USDA/O' s review of computer securty in 13 States.
Ths guide, however, does not have the force of law and has largely ben implemented and
monitore by corrspondence.



The SSA had a requirment                        for each State receiving BEND EX data to
                                unti September 1986
have a secmity offcer and a wrttn, comprehensive seurty plan which was     to be submined
to SSA. However, it appear that SSA has not implemented these securty requirements, ac­
cordig to the States visited in ths inspection.

The IRS' ' 'Tax Inonnation Securty Ouidelines " now apply to State agencies because of the
IEVS reuiment. Based upon Internal Revenue Cod reuirments to safeguard tax data,
they requi a self-assessment of data securty that includes a review of computer securty.
States report that the IRS requiments ar inappropriate and burnsome for the puroses of
IEVS. A few States reponed that they wi use a libera interpretation of the IRS guidelines
unti " caught.

Audits by the USDA/O and State legilative prssur appear to be the major factors influenc­
ing the development of State securty      progr.
                                               States without such inuence had less or­
ganze securty        progr.For example, only 4 of the 12 States have a peonnel securty
component to the computer secmity        prgrs.
                                             (peronnel securty is a madated component
of Federa computer securty progrs. ) In each of these four instaces, personnel securty

was intiated as par of the corrective     action plan   resultig frm the USDA/O audits.
Only two States did fonnal risk analyses on their systems; in both instaces they were man­
dated by the State legislatus. Two State legislatus madated the formt of the State com­
puter seurty plan. As one centr ADP          adtrtor   pointed out: " they (the State
Legislatu) control our budget and our agencies ' budgets. We do what they tell us to do.
The most common computer secmity problem note by State ADP offcis was the lack of a
management commtment to securty. While this is not a problem unique to States or even the
public sector, legislative concern , in at least 2 of 12 States, appear to have assured a manage­
ment commtment.

An example of the limted effect of Federal guidace is the fact that 3 of the 12 States visited
reported that they were unaware of any applicable Federal computer securty stadads.        All
States reported that they were unawar of the BENDEX requirments; ths is understandable
since it appear SSA never fonnally implemented them. A BENDEX computer securty re­
quiment cals for States to have a Securty Action Plan (SAP) and to submit an annual
evaluation of the SAP to SSA as a condition of receiving BENDEX and SDX data. Copies
the SAP and evaluations for each of the States visited were requested of SSA. The SSA has
faied to respond.



Although eight States reported computer securty monitorig by HCFA, and four each by FNS
and FSA, only four recaled findigs or recommendations resultig from this Federal monitor­
ing. The most commonly reported finding was the alady noted lack of personnel securty
found by the USDAlG. Other problems noted wer the lack of testing of contingency plans
or the lack of risk analysis. Although States were most awar (8/12) of HCFA visits, only one
noted any reommendations resulting from HCFA monitog, a concern regarg the use of
IEVS data A liely reason for the lack of fidigs resultig frm the HCFA monitoring is that
HCFA did not always review computer securty durg its System Performce Review (SPR)
monitorig visits. For eight of the visited States, HCFA demed securty satisfactory and did
not review it since it had passed review in the past It should be noted here that while only
eight States reported HCFA monitorig visits, HCFA prouced monitorig report for al
States.

When asked about problems with Federa semity gudace, only five States offered any com­
ments. One imort commnt was with regar to IRS' gudace in the IEVS reguations.
Seven States took strng exception to these reuiments as being too burnsome, as well as
inapproriate to the IEVS use of IRS data One State offcial said, " If we had to handle and
use IRS data as IRS gudelies suggest, the use of IRS data would be unworkable. " Another
offere ' 'Te IRS reuirments to destroy tape by cuttg the tape every so many inches, or to
ru IRS tapes, shut down the system, veri JCL and then resta the system cold are anti­
quated and costly. " There have been , and contiue to be, effort by HHSI ASMB to balance
IRS nee to assur that ta data is protected with States ' needs to implement IEVS in an eff­
cient maner.

When asked what they believed would be an appropriate Federa role, State agencies were vir­
tualy unanus in their desir for assistace in this ara. The State agencies want a com­
prehensive set of minimum stadas, common to al        progr,   and to have supportg
guidace. In fact, it should be note that a number of States ar actively lookig for a com­
puter semity stada and requested such guidace frm the inspection team States ar,
however, split about how they would like to se the monitorig done. Whe half opted for
monitong site visits, the others preferr the submission of a rik or vulnerabilty assessment.
(Some note that the lattr could be done by a State audit agency. ) The ASMB has issued a
                                                " "




proposed reguation that includes a common stadad for State computer securty on federaly
funded systems. It includes monitorig through the submission of vulnerabilty assessments.
It should be noted, however, that only two of the States visited did vulnerabilty   assessments
and both were reluctat to shar them with    us voluntay.
Stats Have   Good Access Controls

Access contrls in   the form of passwords and ID numbers, termal identiers, and audit trls
of persons who had used the system are th strngts of State seurty programs. VIrually all
States use access contrls to  lit    to their job responsibilties, employees abilty to crate or
mod fies, and to keep a log of trsactions and system use. States report that their use of
contrls and audit   trs   have developed out of a long hitory of establishing eligibilty and
authorizig benefits thugh a deentrze operation. Thus, with the advent of automation it
was logical to build such controls intO their computer systems. Seven of the States use com­
mercial access control softwar such as " RACF, ACF II, " or Top Sect, while the others
develope their own.

More specifcaly, the access contrls vialy always consiste of both employee specific
password and an ID. The latter was often the employee Soc Securty number. Ten of the
States had proedurs for periodcaly changig password. Ths raged from every 3 months
to a year. The IDs were used to limt the employees to spec termals, specifc cases
and/or specifc   tys of trsactions.
Despite the apparntly well-dsigned and implemented access control effort noted among the
States, a potenti vuerabilty to the protection of persona data was noted in a number of
States. This vuerabilty tok two form:

      May States issue generic passwords for the query function. Ths is tyicaly       done for
      persons in clerical or                          determne if a client has a record.
                           reeptionist positions so they can
      Whe ths pratice dos not dictly permt unauthorze persons access to view , print,
      crate or   mod    client reor, it dos crate an   oppoty
                                                            for access that is not easily
      monitored. Oenerc password ar easily shad and thereby render personal data
      vuerble to dilosur.
      Many States ar intrucig, or incrasing the use of, personal computers which have
      access to the client data bases. Such access, usualy crated for sta offices as opposed
      to progr personnel, crates the opportty for the mas maipulation of, or
      downoadg of, large quantities of data


Stats Need To Strengthen Security In Specif Areas



Weakesses in State computer seurty can be doumented by the absence of some commonly
accepted pratices. If one were to use OMB Cirular A- 130 (M anagemenr ofF ederall nforma­
                the computer securty requirement applicable to Federal agencies) as a stad­
tion Resources, 


ard for evaluatig State computer securty progrs, a number of specific deficiencies could
be noted among the States visited.

         The-quarers of the States did not have a specifc computer securty plan in place. The
         OMB Circular A- 130 requirs a specific c'omputer securty plan and the designation of
         an individual to be responsible for the implementation of the plan. Only four States had
         such proedurs in place. The others, when queried about computer security plans,
         reportd that they relied on a varety of admistrative guidelines, had a plan that
         adssed data securty or access controls only or had no plan but were developing one.
The Offce of lrspector Oenera in commentig on ASMB' s proposed computer securty
gudelies for federay fuded systems durng the in- house review period reommended that
one of the reuiments be for States to have one, comprehensive computer secmity plan.

         Only the States had plans and monitorig      procedures     for computer security at remote
         sites (State distrct   or county welfar offces).   While   Federa computer security
         gudace strsses that securty must be system- wide (Le., including remote sites), States
         in genera appear to leave remote site securty to the discrtion of local managers or
         ADP sta. The access control system, in most instaces, is statewide by design, and
         therefore, is in place at remote sites. These nie States ar providig local managers
         with litte more than the access control maual. Two of these States report that they do
         look at seurty durg monitoring visits but neither had stadads against which to
         evaluate the securty at the local offces.

         Only two States did vuerabilty assessments or risk analyses to evaluate their securty.
         It should be noted that not only is a periodc risk analysis required on Federal computer
         systems, but the prpose ASMB computer securty reuirments for States wil require
         a risk assessment. As noted earlier, the two States that did risk assessments did so at the
         dition of their State legislatus. A possible implementation problem for the ASMB
         reguation is that both States were reluctat to shar those report with us on a voluntar
         basis. However, most State computer systems had been reviewed by outside agencies
         such as " Big 8 CPA"     fi or State auditors.

         Eight States did not do personnel securty backgrund checks. Background checks are             a
         stada reuiment for Fedra employment and peonnel securty is a mandated
         component of Fedra computer securty. The dicussions with States revealed that the
         idea of background checks for persons who had access to computers was never really
         considered. In fact, the four that do perform backgrund checks do so in response to the
         USDA/O audits.

         Contigency plans generay exist on paper in the form of a proposal to move into and
         shar another agency s facilty. Only the plans have ben tested.
                                RECOMMENDATIONS


The most signficant findig of this inspection is the lack of common, Federal stadards for
States to meet with regar to securty on their federally funded computer systems. The
HHS/ASMB issued on Sepiember 21, 1987 a Notice of Prposed Rulemakg - " Automatic
Data Processing Equipment and Services; Conditions for Federal Financial Parcipation. "
The NPRM, among other things, wil establish such stadas. Durg the process of develop­
ing the stada, 010 made recommendations to strengten them based upon the experience
gained in conducting ths inspection.

The recommendations included:

     Modyig the NPRM to spcifcally reui          that the States have a single securty plan.

     Addng a requirment for review of data securty in addtion to physical securty
     reviews.

     Establishing a clearly defined relationship between generic securty requirements and
     progr-specific requirments.



The recommendations listed above were incorprate into the NPRM. It should also be noted
that USDA is in the proess of developing a companion securty reguation for its grantees.

We recommend that the HHS common computer seurty        stada be issued in final, with the
requiement for risk analyses.

Review and follow-up proedurs wil nee to be establihed in ordr to properly monitor im­
plementation of thestada.     The 010 will monitor implementation of the stadas to deter­
mie their effectiveness in adssing the aras of concern highlghted by ths report.
                                AGENCY COMMENTS


Substative comments on the draf report were received frm ASMB and FSA within HHS
and from the Foo and Nutrtion Servce (FS) and the Inspector Genera at USDA.

The HHS/ASMB reported that lead responsibilty for State ADP systems had been trsferred
from ASMB to FSA, and that FSA was now in the proess of finalizig the computer securty
regulations for States receivig Federal funds. FSA report that the final regulations wil soon
go thugh fial Deparenta clearce.

The USDA/S reportd that on August 8, 1988 they issued an NPRM establishing minimum
computer securty requiments for State and local agencies adisterig Foo Stap
Prgrs.     Our analysis of these reguations indicates that they are viraly identical to the
HHS reguations. The USDA/O suggested that responsibilty for assurg and monitorig
complice with the regUations be assigned. The USDA reguations note that FNS wil be
responsible for assurg compliance; FSA wi assume that responsibilty withn HHS. They
wil be using either the requi securty reviews or the corrctive action plans as the prima
means for monitoring complice.
